y

FILED
MAR 0 8 2021
No.

OFFICE OF THE CLERK
SUPREME COURT. U.S.

30- 1^05
IN THE

SUPREME COURT OF THE UNITED STATES

TAREK FARAG - Petitioner,
V.

ALI WAQAS, ET AL — Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO

i

ILLINOIS SUPREME COURT

PETITION FOR WRIT OF CERTIORARI

TAREK FA RAG
411 N WARWICK AVE,
WESTMONT, 1L 60559
(630) 709 3965
tarekfarag@comcast.net

RECEIVED
MAR 1 6 2021
11

1

QUESTIONS PRESENTED
Plaintiff Tarek Farag (hereinafter Farag), sued Defendant Ali Waqas (hereinafter Waqas), in
Dupage Court, IL alleging that Waqas was motivated by the hateful teachings of Islamic Sharia and
committed hateful: harassment, criminal damage to property, criminal trespassing, and invading
Farag’s privacy and spying on him. Farag supported his allegations with some hateful Sharia’s
teachings. On the first hearing, Judge Rohm declared that Sharia is untouchable, and that no one can
issue any order against it. Farag filed motions for Injunctive Relief and to Declare Islamic Sharia
Contrary to our Constitution and laws, supported by many additional Sharia’s teachings, which
Judge Rohm denied. Farag appealed the denial and the Appellate Court affirmed it, and Illinois
Supreme Court denied his petition for leave to appeal on 10/7/2020. Later, Judge Rohm sanctioned
Farag for stating Sharia’s facts, struck them all, banned Farag from bringing any, and threatened
Farag with sanctions and jail time if he tries to bring them.
The Questions Pr esented are:

<

Whether Sharia is contrary to Our Constitution and laws?
Whether Sharia is untouchable?
Whether the Court erred in not granting the injunction and not Declaring Sharia Unconstitutional?
Should Judges rule on ly on the record, not the public information, nor their personal opinion?
Should Judges fear the objections or violence of others that are against the fair application of the
law?
The Supreme Court should fix our broken legal system.
The Supreme Court should give more attention to the cases involving large political impact.
The Courts, at all levels, should allow the parties to record the proceedings and allow the public
easy access to all public Court records.

2

Ill

TABLE OF CONTENTS

QUESTIONS PRESENTED

' ..t

TABLE OF CONTENTS

in

APPENDIX

K

IV

TABLE OF AUTHORITIES

v

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

I

JURISDICTION v

1

STATEMENT

1

ARGUMENT

5

SHARIA FACTS

►

1

i

5

ARGUMENT (CONTINUE)

12

ADDITIONAL, REASONS TO GRANT THE WRIT

20

CONCLUSION-

23

CERTIFICATE OF WORD COUNT

24

CERTIFICATE OF FILING AND SERVING THE PETITION

25

■ G

i

3

IV

APPENDIX
Illinois Supreme Couit’s Order denying Farag’s petition for leave to.appeal

la

Appellate Court Rule 23 Order affirming the denial of Injunctive and Declaratory relieves

2a

Affidavit of Tarek Farag for Arabic Translation

10a

Affidavit of Tarek Farag for his sufferings and not suicidal

I la

Honorable Judge Rohm Order setting jury trial

12a

Honorable Judge Rohm Order barring Farag from filing documents without Court leave

13a

Honorable Judge Rohm Order dismissing the case with prejudice then reversing it, and

14a

denying his motion for declaring Sharia unconstitutional
Honorable Judge Rohm Order denying Farags motion to amend complaint

15a

Honorable Judge Rohm Orders on 11/20/2020, ruling on the motions filed 5/4/2020 and

16a

5/20/2020

t /dh1/

Honorable Judge Rohm Order on 10/29/2020, sanctioning Farag

18a

Honorable Judge Rohm Order denying Waqas’ motion to dismiss Counts 1,2;3, and 5

19a

Honorable Judge Rohm Order on 8/10/2020 striking Farag’s response to Waqas’ reply

20a

Honorable Judge Rohm Order on 6/15/2020 continuing the case

21a

Honorable Judge Rohm Order on 4/23/2020 admonishing Farag and denying his motion for

22a

appealable language
Honorable Judge Rohm Order on 4/10/2020 vacating default and denying Farag’s motions

23 a

for injunction and declaratory relief
Honorable Judge Rohm Order on 2/26/2020 for defaull and setting jury trial

24a

Report of Proceeding for 2/26/2020 hearing

26a

Waqas’ motion for sanctions proving that he agreed on declaring Sharia unconstitutional

46a

Exh 1, containing Quran’s statements in Arabic with their translations

61a

Exh 2, containing real Sharia teachings from Arabic reference with their translations

67a

4

(

' M

r •

V

TABLE GF AUTHORITIES
*. ■

28 U.S.C. §1254(1)

1

720 ILCS 5/12-7.1

1, 13

720 ILCS 5/26.5-0.1

2

735 ILCS 5/11-106

17

735 ILCS 5/2-701(a)

18

Koziol v. Village ofRosemont, 32 Ill. App. 2d 320, 327-28 (1961)

19

Kitt v.' City of Chicago, 415 Ill. 246, 252, 112 NE.2d 607

19

f ■ t

;

;

■

J

5

PETITION FOR A WRIT OF CERTIORARI
Petitioner respect fully seeks a writ, of certiorari to review the judgment of the Appellate Court of
Illinois, Second District.
OPINIONS BELOW
The opinions of the Appellate Court was filed Augu st 14, 2020, under Supreme Court Rule 23
and may not be cited as precedent by any party except in the limited circumstances allowed under
Rule 23(e)(1), (2a).
JURISDICTION
The Appellate Court of Illinois, Second District, filed its order on August 14,2020, (2a), and the
Supreme Court of Illinois denied Plaintiff s petition for leave to appeal on October 7,- 2020, (la).
The Court has jurisdiction under 28 U.S.C. §1254(1).

~

-....... -

STATEMENT

0

Notes:
The numbering (R al5) refers to the page number 15 in the Record of Appeal, while (15a)
refers to page number 15 of the Appendix.
Abbreviations used: HJ Honorable Judge, CirCt Circuit Court, ApCt Appellate Court.
Farag filed his original Verified Complaint for a jury trial, against Waqas, pursuant to the statute of
“Hate Crime” 720 ILCS 5/12-7.1, which states in relevant parts:
(a) A person commits hate crime when, by reason of the actual or perceived race, color, creed,
religion, ancestry, - -, or national origin of another individual or group of individuals,
regardless of the existence of any other motivating factor or factors, he or she commits assault, -, intimidation, - -, criminal trespass to residence, misdemeanor criminal damage to property, *, criminal trespass to real property, - -, harassment by telephone, or harassment through
electronic communications - (b-10) Upon imposition of any sentence, the trial court shall also either order restitution paid to
the victim or impose a fine in an amount to be determined by the court based on the severity of
the crime and the injury or damages suffered by the victim. - (C) Independent of any criminal prosecution or the resu lt of a criminal prosecution, any person
1

suffering injury to his or her person, damage to his or her property, intimidation as defined in
paragraphs (a)(1), (a)(2), and (a)(3) of Section 12-6 of this Code, - -, harassment by telephone
as defined in Section 26.5-2 of this Code, or harassment through electronic communications as
defined in paragraphs (a)(2) and (a)(5) of Section 26.5- 3 of this Code as a result of a hate crime
may bring a civil action for damages, injunction or other appropriate relief. The court may
award actual damages, including damages for emotional distress, as well as punitive damages.
The court may impose a civil penalty up to $25,000 for each violation of this subsection (c). A
judgment in favor of a person who brings a civil action under this subsection (c) shall include
attorney's fees and costs. After consulting with the loca l State's Attorney, the Attorney General
may bring a civil action in the name of the People of the State for an injunction or other
equitable relief under this subsection (c). In addition, the Attorney General may request and the
court may impose a civil penalty up to $25,000 for each violation under this subsection (c).
-

■v ■

720ILCS 5/26.5-0.1 Define harassment as “knowing conduct which is.not necessary to
accomplish a purpose that is reasonable under the circu mstances, that would cause a reasonable
person emotional distress arid does cause emotional distress to another.”
1

’

:.

.

Farag asked for judgments over $50,000.00 for each count (R a5-16). In his complaint, Farag stated
very few statements from the Quran (Islam’s holy book) and Sharia’s reference book (that teaches
the real Sharia applied in Islamic countries, but deceptively promoted in non-Islamic countries, until
Muslims can have the power to impose it completely), with the intention to bring more during the
pretrial and discovery,"which he did in his motions and included them in Exh 1, and Exh 2 (.
Farag alleged that Waqas was motivated by the hateful teachings of Sharia and committed: 1Hateful harassment by filing frivolous complaints with the authorities (R alO); 2- Hateful criminal
damage to Farag’s property by intentionally throwing his yard waste on Farag’s flower beds, and
deceived him and damaged (cut) four valuable trees (R alO); 3- Hateful criminal trespassing to
Farag’s property by entering it without permission and damaging it (R al 1); 4- Invading Farag’s
privacy and spying on him, by watching him to make sure that he is “not breaking any laws or local
codes”, to prevent him from doing what he wants, and to force him to hire and pay a licensed roofer
(R al2); and 5- Causing additional damage to the property (R al2).
; _

:Vl

_

'

On 2/18/20, Farag moved for an injunction, alleging that: Waqas can cause irreparable harm (R a!92

v.

/

1|4); Farag has protectable right to enjoy his privacy and to be left alone (R al9-^|5), has no adequate
remedy if he waited to the end of the trial (R al 9-^[4, ^|7); and Waqas will not suffer any damage in
case the injunction'Was issued (Ra20-f7)'.
.

i.

*

.

,

On 2/26/20, Defendant didn’t appear, even after Farag asked HJ Rohm to wait for him twice, and
HJ Rohm issued a default judgment against Waqas, denied all Farag’s motions, sat jury trial
schedule (R a22), and expressed his determination not to issue any order that has anything to
do with Sharia (R al09,110).
On 3/16/20, Farag served and filed his sworn second motion for injunction (R a24-28), in which he
established the four elements (for injunctive relief) will specific facts and allegations, mainly: (1) a
protectable right; (2) irreparable harm; (3) an inadequate remedy at law; and (4) a likelihood of .
success on the merits. On 3/16/20, Farag filed a motion for a Declaratory Judgment that Islamic
•

;■

fw'i '

Sharia is Against Our Constitution and Laws (R a29-58). The motion supported its argument that
Sharia is contrary to our constitution and laws, by more than 40 statements from the Arabic text
. of the Quran itself, about 20 pages of one volume only of original Arabic Sharia reference
book, and few incidents of the real application of Sharia in recent years in Egypt.
On 3/19/20, the attorney Mr. Mark Silverman filed his appearance for Waqas, and filed a motion to
Vacate Default (R a59-63). To save time, on 3/27/20, Farag filed his response to Waqas’ motion
asking HJ Rohm to grant his motion in part (R a64-66). Farag discovered that Waqas’ attorney was
acting in bad faith, abusing the system, and wasting time. On 4/10/20, Farag filed a motion for
sanctions pursuant to Rule 137 against Waqas and his attorney (R a67-70). On 4/10/20, HJ Rohm
entered an order vacating the default against Waqas, and denied Farag’s motions for injunction; and
"to declare Sharia is against our constitution and laws (R a71). On 4/20/20, Farag filed a motion to
make the order denying the motion to declare Sharia is against the constitution and laws appealable
(R a72-74). On 4/23/20, HJ Rohm issued an order admonishing Farag to follow the Administrative
3

Orders (COVID-19) regarding the filing of new motions, and to avoid improper ex parte
communications. The order denied Farag’s motions to make the order regarding Sharia appealable,
and Rule 137 sanctions (R a75). On 4/27/20, Farag served and filed Notice of Appeal (R a76:77).
On 4/29/20, ApCt acknowledged receiving the Notice of Appeal (R a78). On 4/27/20, Waqas tried
to provoke fights with Farag (R a81). On 5/4/20, Farag served and file 1 m CirCt a motion for an
injunction order or a temporary restraining order (TRO) (R a79-82), and filed in ApCt a motion to
stay appeal’s proceedings (R a83-84). On 5/4/20, Farag filed amended Notice of Appeal (pursuant
to Rule 307(a) (R a85-86). On 5/20/20, Farag filed his motion, to reconsider asking HJ Rohm,
among other things, to admonish Waqas not to rely on HJ Rohm to plead on his behalf; declare that
Islamic Sharia is against our Constitution and Laws; in the alternative, make the Court’s Order of
4/1C/20.appealable: On 6/5/20, Waqas filed his motions to dismiss. On 6/15/20, HJ Rohm ruled on
Waqas’s motionr to dismiss filed 6/5/20. and refused to rule on Farag’s motions for injunctive
relief filed 5/4/20, and reconsider filed 5/20/20.
The ApCt examined the two issues of “Injunction” and “Declaring Sharia Contrary to Our
Constitution and Laws”, and affirmed the CirCt orders for both on 8/14/2020. On 9/11/202, Farag
filed his “Petition for Leave to Appeal” in the Supreme Court of Illinois, which was denied on
10/7/2020.
After the Appellate Court’s ruling, HJ Rohm did the following
a) Refused to grant Farag’s multiple requests to amend his complaint once (13, 15, 18, 19 a);
b) Without following the proper proceedings for sanctions, HJ Rohm sanctioned Farag $500
for trying to support his case by Sharia’s facts and trying to amend his complaint after HJ
Rohm granted him leave to amend Count IV, with the understanding that granting him a
leave to amend Count IV should allow him to remedy the defects in his original complaint
and amend it properly (18a);
4

c) Struck and denied Farag’s pleadings in response to Waqas’ motions and HJ Rohm’s,rulings
•\ ;

.f

'

d) Struck all Sharia facts from Farag’s pleadings as irrelevant, without him or Waqas showing
, the legal basis against the clear requirement by 720ILCS 5/12-7.1 (13a to 25a);
e) Barred Farag from bringing any Sharia facts to the record or during the trial (14a, 16,18);,
f) Barred Farag from filing anything without Court leave (13a);.'
g) Harshly threatened Farag to put him in jail and impose more sanctions on him (Hearing on
11/20, 2020 reflected in the order (14a));
h) Put Farag under tremendous fear and stress, forcing him to file affidavit about his sufferings
(11a); and
i) In spite of Farag explaining to HJ Rohm that he: cannot proceed in the case under these
conditions, he sat a kangaroo jury-trial-schedule to have the jury-trial in about two weeks,
without discovery, without serving the unknown defendants, etc. (12a)

ARGUMENT
Notes:
The requirements of Rule 31 (Translation) were already fulfilled by the affidavit of Farag (10a) and
the absence of any objection to its accuracy. Farag is ready and willing to discuss any disputes to his
translation or to the teachings of Sharia themselves.
SHARIA FACTS
1. As there is a misunderstanding of Sharia, and people think that its controversies are about
women’s dress and ether superficial matters, Farag included in his complaint some of its legal
issues.
2. Sharia is Islam's legal system; some of its rules are presented in Exh 1, and Exh 2 (61a to 80a).
5

Every Moslem is mandated to follow and apply itsrules all the times and everywhere. If the
Moslem is in the country of the disbelievers itwill be “Fard Kefavia’*. which mandates that at
least one Moslem must do it to remove the burden from the rest [Exh 2,pg 7], Moslems that do
not follow Sharia’s teachings are considered converts that must he killed ■
3. Real Sharia is taught and applied in Islamic countries, but deceptively promoted in other
countries to hide its brutality and violence. Moslems pretend that the violent actions of Sharia’s
foliowers are against its teachings. Moslems will wait until they have the power to impose it, then
fully practice its real teachings and eliminate all other r eligions.
4. There are many Islamic terrorists’ countries, organizations, groups, and individuals (e.g. Egypt,
Pakistan, ISIS, ISIL, A1 Qaida, A1 Shabab, etc.). However, the actual number of terrorists could be
in the tens of millions. According to Sharia’s Fard Kefayia. a single Moslem should act as a
terrorist’s group (e.g. San Bernardino massacre, Boston marathon attack, attacks on innocent people
by individual terrorist Tthev are given cute names like ‘'Lone Wolf’ll.
5.

Sharia outrageously-discriminates against non-Moslems [Exh 1], [Exh 2] (61a to 80a).

6.

Quran, in (3-28) states; “Moslems should not take non-Moslems as friends, protectors, helpers,

etc. except to deceive them to avoid harm or achieve benefits (Taqvia principle), and whoever does
this is notfollowing Allah (will become a convert that must be killed)”: Again, the Quran in (5-51),
reemphasizes the same hostility as in (3-28) specifically against Christians and Jews: “Oh,
believers, don 7 take Christians or Jews as friends, protectors, helpers, etc., and whoever does this
will be one of them ”. (5-5 l)[Exh 1; pg 5],
7.

Sharia orders Moslems to wage Jihad war against all non-Moslems to eliminate them: force

them to become Moslems; pay protection fees (Gizia) and live in humiliating conditions; or have
their men killed, their property confiscated, and their women and children taken as slaves.
8. It orders its followers to be brutal against non-Moslems [Exh 1; ^[l-][21],[Exh 2; pg 6,13,14],
6

9. Sharia orders its, followers to hate the non-Moslems, and not to permit themselves to accept
courteous actions of non-Moslems to avoid feeling affection for them. Sharia explains; Moslems,
and, non-Moslems can live.together, which is something from the outside (difficult to avoid in daily
life), but affection is something from the inside that should be avoided. [Exh 1; 1|31-^33], [Exh 2; pg
141. This asserts the deceptive teachings of showing ou tside opposite to inside.

•

10. Sharia insults all other religions and criminalizes them! Uses profanity about St. Mary (kept
her vagina -

and blow in her vagina) [Exh 1; p9,]|40], refers to Christians all the times by ' .

derogatory term (Nasara), describes Jews as pigs and monkeys [Exh 1; ^35-^37], arid categorizes
non-Moslems as Infidel (Kafer) that should be killed [Exh 1, ^|1-]|28]. However, any.one who
criticizes Sharia the slights criticism (including Moslems), must be killed [Exh 2; pg 4,5],
11. No Moslem should be executed for killing non-Moslem, while many non-Moslems could be
executed for killing.just one;Moslem [Exh 2; pg 2,3].
12. No freedom of religion or speech in Sharia for anyone (Moslems Or non-Moslems). The death
penalty is enacted for converts. Sharia’s definition for converts includes almost everything:
Criticizing or mocking; Allah, Islam, or Mohammad; atheists; agnostics; Moslem men capable of
jihad and not joining it: Moslem men not praying regularly: leaving Islam; etc. [Exh 2, pg 4],
13. Infidels must be eliminated from Islamic societies, while Ketabi are not allowed to exist in
Islamic societies except under very harsh and humiliating conditions to force them to convert to
Islam or leave the country. Ketabi must deliver the Gizia in submission and humiliation, as it is the
worst thing to force someone to do something he does not believe in, but must endure it. They must
submit to Islamic rules in everything other than worship. They must say good words only about
Islam. Quran, and his great messenger, to glorify Islam. Not to do anything harmful to Moslems like
not paving the Gizia or refusing to apply Islamic rules. They are prevented from serving wine,
feeding pigs, and saying Infidel’s statements like Allah is third of three. They should be prevented
7

from showing: wine, pigs; Church’s hells, or celebrate their, feasts, and if they show any of these, it
must be destroyed. iTh^y should-not renovate or fix Churches, monasteries, or Magus’ fire-house, in
cities Moslems established like Baghdad and Cairo, according to the statement of’Mohamntad; “No
church to be built in Islam”, and if they built one it must be demolished even if the termS of the
Gizia agreement, allows.it. They are prohibited;frpm doing these things in a country Moslems

;

defeated by force like Egypt, because Moslems owned it and took it over, and as a result, Moslems
cannot permit it to become a church. It is forbidden to rebuild churches if demolished. They are
.prevented from building a structure higher than a neighboring one owned by a Moslem (following
Mohammad’s statement; “Islam goes high and nothing goes higher”, it does not matter if the
neighbor agrees, because the ban is for the sake of Islam not for the right of th? Moslem. [Exh 2; pg
12-14],

; /.

r • •’ t

14. Shariaordprs non-Moslems to identify themselves. For example; by sewing their clothes
differently from Moslems, and using neckerchiefs (yellow for Jew. Christian blue or gray, Magus
red or black). Sharia prohibits non-Moslems from carrying weapons, riding horses (if riding a horse
passing by Moslems they should put both legs on one side), imitate Moslems in their dress,
appearance, growing their hair or beard, etc. and must mark themselves in a way to be identifiable
easily as non-Moslems (even when naked in paths bv putting rings on their necks made from cheap
material like iron or lead (not gold or silver)) [Exh 2; pg 13,14],
15. Sharia values non-Moslems lower than Moslems. The Dyia of a free Christian woman is 1/6 of
that for a Moslem man, and nothing for Infidel (should be killed anyway) [Exh 2; pg 10-11],
16. Sharia mandates its followers to show their superiority and to humiliate others (Gizia
agreement, not to start saluting non-Moslems, etc.) [Exh 2; pg 12-14],
17. Sharia allows Moslems to use deception to hide their identity and intentions to enforce, spread,
and favor Islam, and eliminate other religions (Taqviah principle! [Exh 1; f33].
8

18. Sharia does not equate women with men. Men are in charge of women and should beat them if
- they disobey them. A woman’s Dvia. testimony: and inheritance is half that of a man; women are
strictly prohibited from being judges or holding leading positions [Exh 1; f38], [Exh 2; pg
8,9,11}. Sharia has death punishment for homosexuality [Exh l; ^|41],
19. Sharia prohibits non-Moslems from being judges (even when adjudicating issues between nonMoslems). It imposes tough requirements on judges to guarantee that they are fanatic male
Moslems. Whoever is not qualified to be a judge, is not authorized to make a judgment, and in ease
he makes a judgment he will not get. credit and will be considered an offender, and his judgment is
moot even if it is just and fair, because it is a haphazard not according to Sharia. Therefore, he is
wrong in all his judgments either right or wrong [Exh 2; pg 9], .
20. Sharia prohibits non-Moslems from having authority over Moslems [Exh 2; pg 9],
21. Sharia, in general, does not accept the testimony of an Infidel against a Moslem or even against
an Infidel, because the Infidel is not a just person [Exh 2; pg 8].
22. With all Sharia’s rules, the prophet Mohammad is the best model, had tremendous manners,
and was sent as a mercy for all the people and Moslems must follow his deeds. [Exh 1; ^[42, ^[43].
23. The reality of Sharia could be observed without deception around the world, inside the USA,
and in Sharia-abiding countries, through the actions and words of its followers.
24. The Mafia system is an Islamic invention. The name is derived from the Arabic words Ma,
which means No; and Fia, which means Fees. This is the same as the Gizia system. The people that
are not members of the Mafia pay fees to protect themselves from the Mafia’s members themselves.
and any member of the Mafia who tries to get out of the system must be eliminated.
25. In Egypt, the Gizia is applied in many hidden ways! As an example, few months ago, the
Islamists and the Egyptian government forced a Christian business man “Sawiress” to pay cash

9

£1,000,000,000 to Islamic causes, under the threats to kill him and destroy all his businesses.
26. Sharia violates our Second Amendment by prohibiting non-Moslems from carrying weapons to
defend themselves [Exh 2, pg 14], in order to subject them to large-scale massacres.
27. Farag and his family lived through many of the terrifying implementations of Sharia while they
were in Egypt, which continued after migrating to the USA, very few of which are:
(1) In one incident on May 1981,‘(known as the massacre of Elzawya Elhamra in Cairo, close to
Farags’ home at-that time), a'Christian man donated his land to build a church (Sharia
considers it outrageously offending to Islam). Moslems killed the man, took the land and
established a mosque on it (impossible to remove), and went into horrific killings, lootings,
burnings of Christians and their properties and homes (using guns, propane tanks, gasoline,
etc.) for three; consecutive days. Elsadaat (Sharia abiding-president of Egypt) instructed the
police to Surround the area and not to protect the Christians while helping Moslems in their
brutalities. The results for Christians were more than 80 dead and hundreds not accounted
for; more than 20 families burned alive; hundreds injured; and hundreds of homes and
businesses were looted and destroyed. These numbers could have been much higher except
that many Moslems sheltered and protected many Christians.
(2) The Egyptian government confiscated the land that belonged to the monasteries for
hundreds of years (were remote desert the monies planted), and confiscated the monasteries
themselves under the disguise “Historical Sites'’, and arrested, tortured, and imprisoned the
monks that objected.
(3) A Christian teacher, Demiana Obid, was falsely accused of insulting Islam, by 3 of her
students (younger than 10 years), against the testimonies of all the Moslem teachers and
administrators, and students. The court refused to examine her witnesses, penalized her
outrageously by £100,000 (the law puts the limits between £100 up to a maximum of £500),
10

imprisoned her since 2013, and all the Moslems that,stated the truth were fired or demoted.
(4) On May 20, 2016, in the village of AlKarm (Minya-Egypt), a mob of more than 300 armed
Moslems attac ked, looted, and burned the homes of Christian families. The police arrested
the five Christian victims and only one Moslem man that was quickly released, and the
victimized families were expelled from the village.
(5) In August, 2013, more than 80 churches and Christian homes and Businesses, were looted,
burnet, and/or destroyed, in one day. No one was ever arrested or questioned, in spite of the
massive evidence, and in many cases happened in places where everyone, knows everyone.
(6) On July, 2018, the Egyptian government orchestrated the killing of Bishop Epiphanius, and
. accused two monks Isaiah, and Faltaous, of the killing. The authorities deprived them from
legal representation, tortured them continuous^ for days, beyond any human endurance,
pushing Faltaous to try to commit suicide and Isiah to Completely collapse. The Egyptian
government claimed that the weapon used was a metallic pipe, contrary to the medical
examiner’s findings that it is a large knife. However, they were sentenced to death. One of
the reasons for this crime, the government wanted to completely confiscate and control the
monastery by implementing police force inside it, under the disguise to protect monks from
further crimes! This is exactly Sharia pretending to protect others from its brutalities.
(7) After Farag migrated to the USA, the terror of Sharia executed the 9/11/2001 attack that
invigorated his terrifying memories of many massacres and made him feel the pain, agony.
and sufferings of each victim and their loved ones multiplied as if his own.
28. Sharia has no limits in making people terrorists including the highly educated. For example;
Farag had a friend that considers himself a moderate Moslem (Prof. Dr. Ahmed, highly educated,
PhD in medicine, wor ked in France for many years on the rese arch of the most advanced medical
fields related to cancer and body-rejection of organs, was invited to continue his research in the
11

USA), when Farag asked him if lie agrees with killing :he convert from Islam, his quick answer
was; “yes, became he knew the secrets ofIslam and can harm iff admitting that Sharia is a Mafia
system. Later he left the USA and asked Farag for help getting school documents for his son. Farag
responded quickly as a dear friend to his requests and did everything he could to get and send them
to him ASAP.

ARGUMENT (CONTINUE)
29. The ApCt didn’t ask itself; where are Waqas’ responses, objections, or arguments against
both the declaratory relief and the injunction (while: Waqas is represented by a competent lawyer
and Farag is a pro se)? Waqas did not object to Farae’s motions (at least waived his right to
object) neither in the CirCt nor the ApCt. In reality, at ;he beginning and on April 15, 2020. Waqas
and his wife AGREED to DECLARE THE FACT that SHARIA IS CONTRARY TO OUR
CONSTITUTION. to end the controversy, as Waqas introduced into evidence in his motion for
Rule 137 sanctions:
“In one last effort to save time and money, All has let me know he will agree to sign ‘a
declaration for the fact that Islamic Sharia is against our constitution’ andpay you $0 in
exchange for mutual global releases of claims between Ali and his wife and yourself with
dismissal of the case with prejudice and no costs.” (53 a)
HJ Rohm was the one objecting in spite of Waqas’ waiver of his rights to object, and resolute
not to touch Sharia or even its obvious and undisputed legal facts.
30. Judges should not: investigate the cases, the parties, get information from outside the record, or
apply their own opinions, they should rule according to the record and the law. On 2/26/20, which
was the first hearing (Waqas didn’t appear or file any document), Farag and HJ Rohm had the
following conversation:
COURT: So you want me to issue an order saying that Sharia law is against the Constitution
12

and - (30a)
FARAG: Yes.
COURT: -- something that -- yeah, well, I can't do that. For what purpose?
FARAG: I'm basing it on legal argument, not religious or political argument. According to
the facts, Islamic Sharia, it calls for the killing of everyone that's not a Muslim.
COURT: All right. All right. All right. I know who you are. You've got lots of lawsuits
pending in this courthouse; correct? (3 la)
FARAG: No, they areCOURT: How many do you have?
FARAG: I ha.cl a lot of court appearances.
COURT: How many do you have pending?
■_
FARAG: No, nothing is pending.
COURT: You have had lots of cases pending; correct?
FARAG: No, nothing is pending. They are all COURT: You have had lots of cases in this courthouse; correct?
FARAG: Oh, yes, yes.
COURT: Okay.
FARAG: These all were COURT: Hang on.
FARAG: - against the COURT: Hang on.
FARAG: - tenants.
COURT: So you know how this goes. You know the law. You know how you're supposed to
behave. You know that you're asking for silly things, and I don't know why you think I
Could enter an order that has anything to do wi :h Sharia law. Under what basis do you think
that I could possibly do that? I can't. This is a case about - about your neighbor, as I
Understand it, cutting down some trees or something on your property and that he's hassled
you ever since; isn't that pretty much right?
FARAG: Almost.
COURT: Is that correct or not?
FARAG: Collect, your Honor, but COURT: Okay. So you served your neighbor on February 8th of 2020?
FARAG: Yes, your Honor.
COURT: I see that in the file. (32a)
'■

V

COURT: You can expect all you want. It's not happening today. You're asking for all kinds
of nonsense that, not only can't I do, no judge in this courthouse or this country can. (33a)
In spite of Sharia facts, Farag stated in the complaint, end stating 735 ILCS 5/12-7.1 as the statute
that requires religious facts, HJ Rohm made an early determination, and stuck to it, not to touch
13

Sharia or allow anything related to it in the case, and seemed to be investigating Farag and how
many cases he has. Farag is not asking the Court to ban Islam or Moslems, he is asking to
declare Sharia what it is, Contrary to our Constitution and,Laws.

31. It is hard to believe the fact that Islamic Sharia mandates Moslems to kill all non-Moslems,
confiscate their properties, and enslave their children and wives. It is the Jihad mandate, and it is
-

^ i •

not conditioned on non-Moslems doing srrnething against Moslems or Islam. This mandate was
proved in front of the entire world by the actions of Islamic terrorists and the demonstrations in
Islamic countiies to support it. Farag stated more than 20 statements from the Quran proving this
mandate, and Sharia reference asserts it. ApCt acknowledged:
“Over the course of approximately 30 pages of argument and exhibits, including passages
in Arabic that plaintiffpurports to translate and interpret, plaintiff asserted that, in sum,
Sharia law is violent and, consequently, unconstitutional. ” (1j 8) (4a)
Waaas NEVER challenged any thing in these 30 oases. NEVER stated that they don’t
renresent his beliefs, and NEVER denounced them, which should have prompted HJ Rohm and
AnCt to grant Plaintiffs request for the injunction as the minimum protection. However, HJ
Rohm stated bluntly that no Judge in the country could touch Sharia, which was asserted by the
refusal of ApCt to touch Sharia.
32. Before stating all Sharia’s facts, HJ Rohm made it clear that he would not touch Sharia:
“Farag: Yes. Your Honor, this harassment is motivated by his relieious beliefs. I would like
to ask the courtfor a leave to file a motion to declare that Islamic Sharia is not - it’s
against our Constitution and it’s a hateful ideology.” (R al08).
COURT: “Soyou want me to issue an order saving that Sharia law is against the
Constitution and - “ (R al08) (29a).
Farag: Yes.
COURT: “— something that-yeah, well, I can’t do that” (R al09) (30a). “COURT: So you
know how this goes. You know the law. You know how you ’re supposed to behave. You
know that you ’re askingfor silly things, and I don't know why you think I could enter an
order that has anything to do with Sharia law. Under what basis do you think that I could
possibly do that? I can’t” (R al 10) (31a).
14

COURT: ” You ’re asking for dll kinds of nonsense that, not only can’t I do, no iudee in this
courthouse or this country can” (R al 12) (33a).
COURT: “0!<ay. You know, I've never had anybody say they wanted to prove their case up
in front of a jury rather than unopposed in front of the judge, so that's up to you. Ifyou want
a jury trial, you've got yourselfa jury trial. ” (41a)
Farag: “Your Honor, it’s difficultfor a judge to rule on something like this” (R al21)
(42a).

^

.

COURT: ” We 're going to have a jury trial on your damages. Ifyou ’re seeking additional
relief, such as injunctive relief, the court will decide that at the same time” (R al21) (42a).
“Ifyou ’re seeking any other relief, including injunctions or me telling - me entering
something about Sharia law beins unconstitutional or whatever other - whatever other
reliefyou are seeidng in your complaint, other than money damages, I will determine that at
the same time as the jury is listening to your case” (R a122) (43a).
HJ Rohm bluntly stated! that he. any judge in CirCt. or in the entire USA can not issue any
order or statement against Sharia, irrespective of any facts that could be presented. Further, FD
Rohm gave Farag the impression that he will be “unopposed in front of thejudge”, while the
Judge himself will cwpose him, as demonstrated later in all the proceedings..
Similarly, ApCt refused to review the first and most important point in Plaintiffs appeal, which is
“refusal to issue anv order relating to Sharia”. ApCt, tried unsuccessfully, to justify HJRohm’s
refusal to issue anything against Sharia, by assuming words not in the record and out of its context:
“When plaintiff orally requested that the court declare Sharia law unconstitutional and a
“hateful ideology, ” it commented that plaintiff, who had previously participated in other
litigation, knew that the request was “silly" and that it could not issue such a declaration

(If 6) (4a)
ApCt ignored comple tely the clear statements of HJ Rohm;
“/ can’t do that” (30a), “why you think I could enter an order that has anything to do with
Sharia law. Under what basis do you think that I could possibly do that? I can’t” (31a),
and ” not only can’t I do„ no iudee in this couiihouse or this country can” (33a).
HJ Rohm made an early decision not to touch Sharia, before knowing its real teachings, without
objections from Waqas to its facts stated in the record, or support from anything in the record. This
early decision lead F0 Rohm to deny all Farag’s motions for injunction and declaratory judgment,
which could be politically correct, but wrong legally as it is considered arbitrary and clear abuse of
15

discretion and power, for which, ApCt should have reversed HJ Rohm’s rulings.
If ApCt a&rets that it is silly for Plaintiifio ask CirCt to sav the truth as it is: and protect his
life, property, and rights: then, whom should he ask? And what is not silly?
The law allows plaintiffs to bring whatever allegations they like within the statutes, and have the
burden of proving them. Judges do not have the power to write for plaintiffs their allegations, or
eliminate factual allegations, especially the ones supported by proofs and required by the statutes. In
this case, HJ Rohm struck all Sharia facts alleged by Farag and required by the statute, without him
or the defendant, showing anv legal basis to support the elimination of these facts.
33. ApCt erred affirming CirCt denial of Farag’s second motion for injunction stating;
“Here, plaintiff’s complaint sought to enjoin defendantfrom spying or trespassing, but it
primarily sought monetary damages (namely, to compensate for emotional distress,
$100,000 so that plaintiff could move, the cost of removing stumps andplanting new trees,
the cost to repair roof, siding, and gutter damage, punitive damages, attorney’sfees and
costs), which are calculable. The fact that calculating appropriate monetary damages, if
any, might take time does not necessarily mean that the remedy will ultimately be
inadequate. As such, the court properly rejected plaintiff’s second motion for an
injunction, as it failed to establish an inadequate remedy at law. ” (IT 17) (7a).
ApCt knew from the 30 pages of undisputed Sharia’s facts tha Farag is in real danger of being
killed. ApCt knew that the terror of Sharia was the main reason for Farag’s cause of action. ApCt
focused only on monetary damages not Sharia’s terror that endangers Farag’s life. The DEATH of
Farag is IRREPARABLE and has NO ADEQUATE REMEDY AT ANY LAW. Additionally,
ApCt admitted that Farag’s “motion for injunction was premised on stress, “agony, ” andfear of
Sharia law, i.e., afear of violence andfor his personal safety” (fl 18), which are proper pleadings
for injunction because they cause irreparable harm and has no adequate remedy at law.
34. Refusal of HJ Rohm to rule on Farag’s third motion for injunction or TRO filed on 5/4/20,
while he ruled on other newer motions filed on 6/5/20, is against the administration of justice, and
goes beyond abuse of discretion and power. Waqas never objected to any of the injunctions,

16

neither in the CirCt nor ApCt, waiving his rights to challenge any errors or deficiencies. HJ Rohm
denial of the injunction is defending the Defendant beyond what Defendant wants. 735 ILCS
5/11-106 allows CirCi: to expedite the ruling and “may grant injunctive relief on a Saturday,
Sunday, legal holiday, or on a day when courts are not in session”. Farag filed his perfected third
motion for injunction or TRO after Waqas did exactly what Farag feared, prov,oking a fight.
Farag argued the refusal of HJ Rohm to rule on his third motion for injunction in his appeal’s forth
point “The Circuit Court Erred in Not Granting Farag’s Third Motion for Injunction”. However,
ApCt ignored Rule 307(a)(1), which allows interlocutory appeals from “ granting, modifying,
refusing, dissolving, or refusing to, dissolve or modify an injunction”, and erroneously stated; “As
to the third motionfor injunction,,the record does not contain an order pertaining to that motion
and it is not properly before usfor review.”

19). The record did not contain that order because

HJ Rohm refused to rule on the motion, while this refusal (not ruling on it) is appealable. This
refusal is an affirmation of HJ Rohm’s early decision not to touch Sharia.
35. ApCt erred in assuming that there is a disconnect between the complaint allegations and the
requested injunctive relief.
“Moreover, we note that there also seems to be a disconnect between the complaint
allegations and the requested injunctive relief Namely, the complaint concerns allegedly
religiously-motivated damage to plaintiffs trees and physical property and an invasion of
privacy, while his motion for injunction was premised on stress, “agony, ” andfear of Sharia
law, i.e., afear of violence andfor his personal safety. The relief being sought by injunction
was, therefore, not a natural extension of the complaint allegations, in that the complaint
did not establish an oneoine pattern of conduct threatening defendant’s personal physical
safety that needed to be enjoined. ” (|f 18) (8a).
It is worth noting how ApCt, after all the undisputed facts about Sharia’s terrifying teachings,
ignored Sharia’s “oneoine pattern of conduct (terror) threatening” and devastating the entire
world for about 1500 years that must be eliminated, however, ApCt expressed its judgment that this
is something not “needed to be enjoined

17

Farag’s allegations are not limited to property damages., they included all the terrifying teachings of
Sharia that “mandates on Muslims to wage Jihad war to kill all the non-Muslims, confiscate their
properties, and to enslave their children and wives’'’. In reality, ApCt admitted Farag’s purpose of
the injunction “conduct threatening defendant’s personal physical safety that needed to be
enjoined. ”(f 18) (8a).
The MAIN ISSUE between the parties is Sharia, not property damages (for which Farag was
willing, in good faith, to accept $350 instead of thousands of dollars, to avoid going to Court).
Once Farag realized that Waaas’ motive was Sharia, Farag became terrified from additional and
more serious actions from Wad as and Sharia followers. Hence, he moved the Court quickly for
Injunction and Declaratory relief, io give himself so me protection and put Waaas and others
on notice SHARIA BY ITSELF IS A PERMANENT AND ACTUAL CONTROVERSY to
Farag and EVERYONE INCLUDING MOSLEMS 735 ILCS 5/2-701(a) states that declaratory
relief may be granted in cases of “actual controversy". but that “the court shall refuse to enter a
declaratory judgment or order, if it appears that the judgment or order, would not terminate the
controversy or some part thereof giving rise to the proceeding.” As stated before, Waaas and his
wife AGREED to DECLARE THE FACT that SHARIA IS CONTRARY TO OUR
CONSTITUTION. to end the controversy.
Further, Farag’s amended complaint filed 9/21/20, offered to have the Court Declare that Sharia is
Contrary to Our Constitution and Laws, to terminate th e controversy about Sharia, and further, if
Waqas denounces its hateful teachings, and declares that he dc es not believe or follow it, then Farag
will drop the hateful Sharia motive and settle for the ac tual costs of the damages, and the costs.
36. ApCt erred in stating that:
(a)
- the court properly denied the motionfor declaratory relief because it would not
resolve the issues between the parties.” 22) '9a).
(b) “Plaintiff has no “actual controversy ” with Sharia law, nor would declaring Sharia
18

law unconstitutional in any way affect the underlying complaint allegations concerning
defendant’s alleged damage to plaintiff’s trees or his invasion of defendant’s privacy. ”
(c). “For an actual controversy to exist, for declaratory judgment purposes, the case must
present a concrete dispute admitting of an immediate and definitive determination of the
parties ’ rights, the resolution of which will aid in the termination of the controversy or some
part thereof. ” 22) (9a).
(i) The most important issue the ApCt missed, is that Waaas never objected to any of Farag’s
motions to “Declare Sharia Contrary to our Constitution and Laws”, in any Court, it is the opposite.
WAOAS AGREED TO THE DECLARATION, as stated before.
.
I:
(ii) ApCt erred in Tf(a’) above because declaring Sharia (what it is) unconstitutional will determine

the hateful motive in Waiqas’ actions. Additionally, Farag.expressed his willingness to/emove all
his claims based on the hateful religious motive and se tle for the actual damages and costs. Thus,
this declaration will determine the rights of the parties, and resolve Sharia’s controversy.
(iii) ApCt erred in |(b) above because the actual (mai:i) controversy Farag has-is with Sharia, as he
is alleging that his damages are due to hateful actions motivated by Sharia, not just normal
damages.
(iv) Response to % (c) above is explained in ^f(a) and 1[(b).
(v) ApCt should not try to eliminate Sharia’s controversy from Farag’s actions to narrow the scope
of the declaratory relief, as the Second District explained:
"The scope of the declaratory judgment remedy should be kept wide and liberal and not
restricted by technicalities. The important point is the right and the duty of the courts to
grant declaratory relief where, in the interest of the proper administration ofjustice, it
ought to be granted regardless of how the particular action in which the declaratory relief is
sought, may be classified" Koziol v. Village of Rosemont, 32 Ill. App. 2d 320, 327-28
(1961).
ApCt should have helped the parties determine and end the dispute, as “Declaratory Judgment
statute was designed to provide a speedy and inexpensive method of determining disputes." Kitt v.
City of Chicago, 415 Ill. 246, 252, 112 NE.2d 607.
19

Therefore, we have the parties themselves agreeing on the declaration to terminate the main
controversy, determi ne their rights.' and determine how the case will proceed; hence, the Court
should not obiect to their agreement or to the undisputed fact that Sharia'is contrary to our '
constitution and laws, and should have granted the declaratory relief requested.
1! .

ADDITIONAL REASONS TO GRANT THE*WRIT
Petitioner believes that this appeal raises, among other things, issues of great importance and
urgency to the public. These issues include:
37. Our legal system is in a disastrous situation and the people lost trust in all levels of our Courts.
The entire world watched the confirmation hearings of HJ BretfKavanaugh and HJ Amy Coney
. Barrett, and saw how corrupt politicians terrified and intimidated the Judges and paralyze their
ability to execute their duties. In the confirmation hearings for HJ Barrett, any observer can realize
that the Democratic Party prepared a wide scale plan to use fraud in the coming elections, with the
help of corrupt mediu. the censorship of the evolving social media, foreign countries, the misprision
of our law enforcement agencies, and the deep state agents. They expected that evidence of their
fraud could be discovered and its cases could come to the Supreme Court. They preemptively
attacked HJ Barrett arid accused her of being appointed by President Trump to promote his causes
not to apply the law fairly. They succeeded beyond their imaginations to disable the ability of the
Supreme Court to examine the election fraud, as they put the Judges in a guaranteed biased position.
If the Judges accept these cases, they will scream that they are biased to President Trump and doing
what they warned about before; If they refuse to take these cases, they will declare that even the
Judges that President Trump appointed are against him, proving that he is wrong. The latest actions
of the Supreme Court proved that the Democratic Party became able to control enough Courts and
the entire country. Anyone can realize the devastating dangers of elected Representatives that
20

supposed to enact our laws, being elected by fraud. The Supreme Court should not avoid the cases
that have large scale political impact, and this case is one of them.,
38. The poisonous political environment is threatening our society and Courts from the lowest to
the highest levels. Those threats-, were manifested in the declaration of HJ Ruth Ginsburg that she is
going to leave the country if presidential candidate Mr. Trump wins the election, however, refused
to leave after he became the president. It was also manifested in the blunt statements by HJ Rohm
saying that he, anyone in his Court House, or in the country, cannot touch Sharia. ;
39. Some members of the Congress are trying to inject Islamic Sharia in our laws, may be, without
full knowledge of their reality. Mr. Biden declared that he is going to appoint many Moslems in his
administration, without anyone objecting to his statements. Anyone can imagine what could have
happened if Mr. Trump would say that, he is going to appoint many Catholics in his administration.
40. Various states have banned Sharia law, or passed some kind of ballot measure that prohibits the
state’s Courts from considering foreign, international or religious law, and there are some states
Where Sharia advocates are trying to implement them. Declaring the legal nature of Sharia as it is
stated in its original Arabic references, will clarify things on the federal level. We need to notice
that when people try to analyze Sharia, some will rush to wrongfully accuse them of Islamophobia
without knowing its meaning. Islamophobia could be defined as "unfounded hostility towards
Muslims, and therefore fear or dislike of all or most Muslims". Watching the actions of Islamic
terrorists and their claims that they are motivated by Sharia, and studying its full real teachings,
establish a foundation for its fear. Hence, accusing someone of Islamophobia, especially after the
spread of Islamic terror, is wrong and used to scare and silence any criticism of Islamic terror.
41. Whistleblower Philip Hanev. a patriotic agent in the Home Land Security Agency was killed on
2/21/20. He testified to Congress exposing Islamic terrorists ai d their organizations, and the
misprision of government officials. No one cared to take action, so, he further exposed them in his
21

book “See Something, Say Nothing”, disclosing the Obama Administration bias to Islam and its
protection of Islamic terror. His death was completely ignored by the low enforcement agencies
and the media, provinig the' ability of Islamic terrorists to eliminate anyone who touches Islam..
42. The Constitution divided the Government into three branches: Legislative, Executive, and
Judicial. The recent technological developments added the Media branch, news and social, as a
forth branch stronger than the three together, creating a huge imbalance and extremely dangerous
situation. The Supreme Court should give priorities to ;he cases involving any of the other three
branches, and riot to ignore its role in keeping the balance and protecting the Constitution.
43. Unfortunately, we have a legal system not a justice system, in which the Courts swap their
goals with their tools . Instead of making their goals achieving justice, using the legal procedures as
tools to achieve justice, they made their goals to strictly follow the legal procedure and making
achieving justice a secondary goal (tool). The measure of the strength of the legal systems is their
abilities to achieve justice to the layperson, the poor, and the weak, not the rich or the best lawyers.
In our system, it is almost impossible for a pro se to succeed in winning justice. In this respect a
wise person said “In this country, you could get all the justice you can afford”. One of the obstacles
to justice is the “STANDING”. In some cases, the Courts required the persons to he killed
before they can establish standing. In the recent challenges to the election fraud, some Courts
deprived the citizens from Standing to challenge that fraud. In one of Farag’s cases against the
patent-fraud of some pharmaceutical companies, the Federal Court (Chicago) refused to grant him a
leave to amend his complaint after it was transferred from the Circuit Court, and dismissed the case
stating that Farag lack ed standing because he is not the direct purchaser of their medications (he
was buying them and the insurance companies paying for).
44. In Illinois, the recordings of Court proceedings by the parties are strictly prohibited and
severely punishable. Which increase the cost of litigations; prevent the public from watching the
22

Judges; allow corrupt Judges t6 hide their corruption. With the evolving of the technologies of
audio and video recording, including the ability to convert speech.into text, the Courts, at -all levels,
should-generally alloy/ the parties to do their own recordings and when there are disputes, the
official Court recording could be used to resolve them.
45. Currently, in Illinois, the public have access to the Court records by physically going to Courts,
which is limited, inconvenient, and, costly. To increase the efficiencies of the Courts, and allow the
prq.sp litigants to educate themselves and improve their litigations, the Courts, at all levels^ should
allow the public easy, inexpensive (free), and remote access to all public Court records, ,
.V

CONCLUSION

This Court should grant certiorari, and other relief as appropriate.
Respectfully submitted,

-x ■

Petitioner: TAREK FARAG, pro se
411 N WARWICK AVE,
WESTMONT, R, 60559
(630) 709 3965
tarekfarag@comcast.net

Verification bv Certification
I declare under penalty of perjury (28 USC § 1746) that the foregoing is true and correct.

Executed on: March 8, 2021

(signature)

23

